Summary of Credit Terms- Union Bank Secured Visa® Card
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

18.99%
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

18.99%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

25.25%.
This APR will vary with the market based on the Prime Rate.

Penalty APR

None

Paying Interest

Your due date is at least 21 calendar days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances and balance transfers on the
transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.75.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$25

Transaction Fees
•

Balance Transfer

Either $10 or 5% of the amount of each balance transfer, whichever is greater.

•

Cash Advance

Either $15 or 5% of the amount of each cash advance, whichever is greater.

•

Foreign Transaction

3% of each transaction in U.S. dollars.

Penalty Fees
•

Late Payment

•

Over-the-Credit Limit

None

Returned Payment

Up to $35.

•

Up to $37.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."

The above information, such as rates and fees, is accurate as of 3/16/2020 and is subject to change. Please contact Union Bank
Customer Service at 877-505-6789 for up-to-date information.

SEE BACK OF PAGE for more important information about your account.

Page 1 of 4

ADDITIONAL TERMS & CONDITIONS
If an account is opened, you will receive a Cardmember Agreement (“Agreement”) with your card(s). You agree to the terms of this Agreement by: using
the account or any card, authorizing their use, or making any payment on the account. We have the right to change the account terms (including the
APRs) in accordance with your Agreement. We reserve the right to change the benefit features associated with your card at any time. Complete terms
and conditions will be provided to you when you become an approved cardmember. Cards are issued and serviced by Union Bank® Card Services, a
division of MUFG Union Bank, N.A.

IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism and money laundering activities, the USA PATRIOT Act requires all financial institutions to obtain,
verify, and record information that identifies each person (including business entities) who opens an account. What this means for you: When you open
an account, we will ask for your name, physical address, date of birth, and other information that will allow us to identify you. We may also ask for other
identifying documents. We will let you know if additional information is required.

CREDIT REPORT AUTHORIZATION
By submitting an application for credit, you authorize us to obtain credit bureau reports that we will use when considering your application for credit. You
also authorize us to obtain credit bureau reports and any other information about you in connection with the extensions of credit on your account and the
administration, review or collection of your account. If you ask, we will tell you the name and address of the credit bureau from which we obtained a report
about you. You also authorize us to verify your employment, income and other relevant information.

COMMUNICATION AUTHORIZATION
By providing us with your residential phone number or cell phone number, you agree that we (including companies working on our behalf) have your
permission to contact you at the number provided about any of your Union Bank accounts, and that we may use text messaging, artificial or prerecorded
voice messages and automatic dialing technology for informational and account servicing calls, as well as for collection purposes. Message and data
rates may apply.

ARBITRATION NOTICE
If you are issued a credit card, your Agreement will contain a binding arbitration provision. In the event of any dispute relating to your account, the dispute
will be resolved by binding arbitration pursuant to the rules of the American Arbitration Association or JAMS/Endispute. Both you and we agree to waive
the right to go to court or to have the dispute heard by a jury (except as to any collection activities on your account). You and we will be waiving any right
to a jury trial and you also would not have the right to participate as a part of a class of claimants relating to any dispute with us. Other rights available to
you in court may also be unavailable in arbitration. When you receive your Agreement, you should read the Resolution of Claims by Arbitration provision
in your Agreement carefully and not accept or use the Card unless you agree to be bound by the arbitration provision.

BALANCE TRANSFERS
If you are issued a credit card, you authorize us to make one or more of the balance transfers that you have requested from credit card accounts or other
types of accounts with other financial institutions. All balance transfer requests are subject to our approval; we are not liable if we do not make a requested
balance transfer. We reserve the right to make balance transfers in the order we select and to limit the amount of the balance transfers that we make (this
amount may be less than your total credit limit). If you request an amount that we do not approve, we may process a partial transfer for less than you
requested or we may decline the entire request. In addition, transfer requests that are incomplete, illegible or requested to cash, to yourself or to another
account with us or one of our affiliates need not be processed. You should not transfer any amount that is in dispute in order to preserve your dispute
rights. When you transfer a balance from another account, we send a payment in the amount of the balance transfer to the other financial institution. We
have no control over, and are not responsible for, how and when the other financial institution applies the payment. You are responsible for verifying that
the other financial institution applies the balance transfer payment in accordance with your other account’s terms. You should continue to monitor the
other accounts that you request a transfer balance to and you should continue to pay the minimum payments due on those accounts until you receive
statements from those creditors showing that the balances due them have been paid in full. This might not happen until after the balance transfer appears
on your billing statement from us. You are liable for any late payments, finance charges or disputed amounts on your other accounts. We do not send
instructions to the other financial institution to close your other account. If you want the other account to be closed, you must do that yourself. Balance
transfers are subject to applicable fees and finance charges and do not have the benefit of a grace period. If you take advantage of a balance transfer
offer and continue to use the credit card to make purchases, you will lose the interest-free grace period on the new purchases unless you pay
the entire statement balance, including the amount subject to the promotional APR, by the payment due date.

SECURITY INTEREST IN THE COLLATERAL ACCOUNT
As a condition to opening and maintaining a credit card account, you will be required to open and maintain a deposit account with us to hold the funds you
have provided as collateral (the “Collateral Account”). The balance in the Collateral Account must at all times equal at least the amount of the credit line
on your credit card account. At the time the Collateral Account is opened, we will provide you with the terms and conditions governing the Collateral
Account and all related disclosures (the “Collateral Account Agreement”). In the event of a conflict between the terms and conditions in this section and
those of the Collateral Account Agreement, these terms and conditions will apply with respect to the Collateral Account. You grant us a security interest
in the Collateral Account and in all additions to and proceeds of the Collateral Account. Our interest in the Collateral Account secures your promise to pay
for all transactions on the credit card account and any interest, fees and other amounts that you owe us under the credit card account. You agree that,
until all amounts owed under the credit card account have been fully paid and the account has been closed (a) you may not withdraw any funds from the

Page 2 of 4

Collateral Account, (b) you may not create or permit any other lien or security interest in the Collateral Account or transfer any other interest in the Collateral
Account for any reason, (c) any attempt to give a security interest or transfer any other interest in the Collateral Account will be ineffective and void, and
(d) you may not close the Collateral Account.
We may, in our discretion, close the Collateral Account at any time. Before closing your Collateral Account, we will give you any notice required by law or
the Collateral Account Agreement. If any person other than us seeks to assert an interest in the Collateral Account, we may deem the account balance
immediately payable and apply the funds in the Collateral Account to your outstanding account balance. We may use the funds in the Collateral Account
to pay any balances on your credit card account. You agree that if the credit card account issued to you by us is closed for any reason, we may apply the
funds in this Collateral Account to pay off any balance on the credit card account. If the credit card account is closed for any reason, whether by you or
us, we may hold funds in this Collateral Account for a minimum holding period of sixty days after the credit card account balance is paid in full and the
credit card account is closed in order to cover any transactions, fees or charges that may be posted to the credit card account after it is closed. If any
funds remain in the Collateral Account after the credit card account balance is paid, we will send the remaining funds to you in the manner provided by the
Collateral Account Agreement. If the Collateral Account is closed or funds are withdrawn prior to any stated maturity date, we may assess an early
withdrawal penalty as described in the Collateral Account Agreement. Please refer to your Collateral Account Agreement for complete details regarding
penalties for early withdrawals.
The foregoing security interest in the Collateral Account is in addition to, and does not impair or affect, any waiver of any set off or other rights that we
have or may have, now or hereafter, with respect to the Collateral Account.

OVERDRAFT PROTECTION LINKED TO A UNION BANK CREDIT CARD
By enrolling in Overdraft Protection Linked to a Union Bank Credit Card, you authorize the Bank to make advances on your Union Bank Credit Card
(subject to your available credit) in order to cover transactions (including transfers between checking, money market, and savings accounts) presented for
payment against insufficient funds. We will not authorize transactions requiring real-time authorization (such as ATM withdrawals, ATM or Debit Card
purchases, and cash withdrawals in a Union Bank branch) using this service. If you attempt a transaction requiring real-time authorization and there are
insufficient available funds in the linked checking account, the transaction will be declined. Activation of the Overdraft Protection service may take up to 5
business days following the approval of a new credit card account; for customers with an existing open credit card account, it may take up to 5 business
days from the initial request to enroll in the Overdraft Protection service.
Each business day that we determine that your linked checking account is overdrawn by any amount, you authorize us to make an Overdraft Advance
equal to a) $50, or b) the next highest multiple of $50 that will equal or exceed the linked checking account overdraft, as determined by us. For example,
if we determine that your linked checking account is overdrawn by $125, you understand and agree that we may automatically make an Overdraft Advance
of $150 from your Union Bank Credit Card for deposit to your linked checking account. We will make advances only once each business day.
Advances will only be processed if at least one transaction can be covered by the advanced amount. Any negative balance from a previous business day
will not trigger an advance unless another eligible transaction is presented for payment and there is sufficient available credit on the credit card account to
cover at least that additional transaction. If you do not have sufficient available credit on your credit card account to cover all transactions, your linked
checking account may be subject to fees for any uncovered transactions. The total advance amount will appear on the linked checking account statement
each day an advance is made. Only one checking account may be linked to one credit card account, and both accounts must have a common owner. If
your linked checking account is changed to a closed status for any reason, Union Bank may terminate the Overdraft Protection Linked to a Union Bank
Credit Card service without notice.
Overdraft Advances and the $10 daily Overdraft Advance Fee will be added to your Overdraft Advance Balance Category on your credit card monthly
statement and be charged the Overdraft Advance Annual Percentage Rate. Your APR will be 18.99%. This APR will vary with the market based on the
Prime Rate. No grace period will apply when calculating finance charges for Overdraft Advances. If your linked credit card account is changed to a closed
status for any reason, Union Bank may terminate the Overdraft Protection Linked to a Union Bank Credit Card service without notice. You may cancel
this service at any time.
Some accounts may not be eligible for Overdraft Protection Linked to a Union Bank Credit Card. For more information, see the Union Bank Personal
Accounts & Services Disclosure and Agreement.

OTHER DISCLOSURES
WASHINGTON STATE RESIDENTS: Washington state law prohibits discrimination in credit transactions because of race, creed, color, national origin,
sex, or marital status. The Washington State Human Rights Commission administers compliance with this law.
CALIFORNIA RESIDENTS: A married applicant may apply for a separate account. Additionally, we may obtain information at any time from the California
Department of Motor Vehicles. You agree to waive the address confidentiality requirements section of the California Vehicle Code (Section 1808.21).
OHIO RESIDENTS: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy customers and that
credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers compliance
with this law.
NOTICE TO MARRIED WISCONSIN APPLICANTS: No provision of any marital property agreement, unilateral statement or court decree adversely
affects our interests and/or rights unless, prior to the time the credit is granted or an open-end credit plan is entered into, we are furnished with a copy of
the agreement, statement, or decree, or have actual knowledge of the adverse provision. Married Wisconsin residents applying for credit separately
must furnish name and address of their spouse to Union Bank at P.O. Box 51442, Los Angeles, CA 90051.

Page 3 of 4

NEW YORK RESIDENTS may contact the New York State Department of Financial Services by telephone at 1-800-342-3736 or visit its website at
http://www.dfs.ny.gov for free information on comparative credit card rates, fees and grace periods.

MILITARY LENDING ACT
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This
rate must include, as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts); and
any participation fee charged (other than certain participation fees for a credit card account).
Additionally, if any clause in your Agreement with us conflicts with the federal law protections afforded to members of the Armed Forces, including any
provision related to mandatory arbitration, federal law will prevail.
If you would like to receive this Military Lending Act disclosure orally, please call 1-877-925-8666.

Cards are issued and serviced by Union Bank Card Services, a division of MUFG Union Bank, N.A.
©2020 MUFG Union Bank, N.A. All rights reserved. Member FDIC.
Union Bank is a registered trademark and brand name of MUFG Union Bank, N.A. unionbank.com

Union Bank Secured Visa Card (CSC) – Web 05/20

Page 4 of 4

